                 U.S. DEPARTMENT OF LABOR
             EVALUATION OF GRANT CLOSEOUT
                   PRACTICES APPLIED TO
           JOB TRAINING PARTNERSHIP ACT GRANTS

          GRANTS AWARDED TO THE STATE OF OHIO

           INDEPENDENT ACCOUNTANTS’ REPORT
          ON APPLYING AGREED-UPON PROCEDURES




               JULY 1, 1997 THROUGH JUNE 30, 2000




R. Navarro & Associates, Inc. prepared this report under contract to the U.S.
Department of Labor, Office of Inspector General, and by acceptance it becomes a
report of the Office of Inspector General.


                        __________________________________________
                        Assistant Inspector General for Audit
                        U.S. Department of Labor


                                                   Report No.: 04-03-021-03-340
                                                   Date Issued: May 6, 2003


                  R. NAVARRO & ASSOCIATES, INC.
                                                   TABLE OF CONTENTS



ACRONYMS .................................................................................................................................iii

INDEPENDENT ACCOUNTANTS’ REPORT ON APPLYING AGREED UPON
PROCEDURES............................................................................................................................... 1

SUMMARY OF FINDINGS .......................................................................................................... 2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .......................................... 3

          BACKGROUND ................................................................................................................ 3

          OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 3

PROCEDURES AND FINDINGS.................................................................................................. 4

EXHIBIT I – COMPLETE TEXT OF THE STATE OF OHIO’S RESPONSE............................. 7




                                                                     ii
                                   ACRONYMS


CFR     Code of Federal Regulations
DOL     U.S. Department of Labor
ETA     Employment and Training Administration
FSR     Financial Status Report
FY      Fiscal Year
JTPA    Job Training Partnership Act
OIG     Office of the Inspector General
SFY     State Fiscal Year
PY      Program Year
SEFA    Schedule of Expenditures of Federal Awards
SFY     State Fiscal Year
STATE   State of Ohio
WIA     Workforce Investment Act




                                          iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor

                       INDEPENDENT ACCOUNTANTS’ REPORT
                      ON APPLYING AGREED-UPON PROCEDURES

We performed the procedures enumerated in the Procedures and Findings section of this report.
The U.S. Department of Labor (DOL), Office of Inspector General (OIG), agreed to these
procedures. We completed the procedures solely to assist OIG in evaluating the State of Ohio’s
closeout practices for Job Training Partnership Act (JTPA) grants, awarded by the DOL
Employment and Training Administration (ETA) from July 1, 1997 through June 30, 2000.

Management of the State of Ohio is responsible for closing JTPA grants in accordance with
applicable regulations and requirements established by ETA. ETA is responsible for processing
and certifying grant closure, and recording final obligation, expenditure and payment information
in the DOL’s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation
standards established by the American Institute of Certified Public Accountants and Government
Auditing Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of your office as the specified user of the report.
Consequently, we make no representation regarding the sufficiency of the procedures performed
either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this
report.

We were not engaged to, and did not, perform an examination, the objective of which would be
the expression of an opinion on the accompanying information obtained from the respective
entities. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to
be, and should not be used, by anyone other than the specified party.


March 1, 2002
                                  SUMMARY OF FINDINGS


The State of Ohio (State) submitted its Job Training Partnership Act (JTPA) closeout package to
the U.S. Department of Labor (DOL), Employment and Training Administration (ETA) on May
31, 2001. We obtained the final JTPA expenditures reported on the closeout report, and found
that the expenditures reported reconciled to the Ohio’s accounting records. In addition, the final
expenditures reported were reasonable based on amounts previously reported on final Financial
Status Reports (FSRs).

The JTPA program was audited as a major program in Ohio’s single audits for State Fiscal Year
(SFY) 1998 and SFY 1999. The State’s single audit report for SFY 1999 included three findings
that were subsequently resolved. The findings pertained to (1) cash management, (2)
subrecipient monitoring, and (3) property management.

We visited two subrecipients, and found that final expenditures reported to the State were
reconciled to the subrecipients’ accounting records.

State of Ohio’s Response

The Ohio Department of Job and Family Services provided a written response to our draft report,
dated March 13, 2003, which is included in its entirety at Exhibit I. Ohio agreed with the
information presented in the report.




                                                2
                 BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford
disadvantaged youth and adults with the training necessary to obtain productive employment.
The JTPA program was repealed on June 30, 2000, when ETA implemented a successor
program, authorized by the Workforce Investment Act. The closeout of active JTPA grants
began in July 1999, with final closeouts due no later than December 31, 2000. Unspent funds
from the PY 1998 and PY 1999 JTPA State grants were authorized for transition into the WIA
program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract
Management, Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA
grants should normally have been closed within 90 days after the time limitation for expenditure
of JTPA funds. For PY 1997 grants, the 90-day limitation expired September 30, 2000.
However, in certain instances, ETA extended the reporting beyond that specified in the program
regulations. According to instructions set forth by ETA in the JTPA Financial Closeout
Technical Assistance Guide, final JTPA financial reports for PY 1998 and PY 1999 grants should
have been submitted no later than December 31, 2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the State of Ohio closed its JTPA
grants on a timely basis in accordance with ETA instructions; amounts reported in the closeout
packages and/or the final cost reports were reasonable and supported by the State=s and
subrecipients’ accounting records; and there were unresolved audit findings pertaining to JTPA
awards.

Our agreed-upon procedures include the JTPA funds awarded to the State of Ohio for PYs 1997,
1998 and 1999, and FYs 1997 and 1998. Procedures were applied to grant activities reported by
the State and two subrecipients, Toledo Private Industry Collaborative and Work Services
Unlimited, Inc., on final closeout reports.




                                               3
                            PROCEDURES AND FINDINGS


1.   Identify the State’s JTPA grants to be included in the scope of these procedures, and
     how the obligations and final reported expenditures related to each.

     The JTPA grants awarded to the State of Ohio and included in the scope of these
     procedures are below (expenditure numbers based on amounts reported on final closeout
     package):

                                                Per Grantee Closeout
                              Federal          Total                              Net
                             Obligations     Reported         Inter-title     Expenditures
         Year and Title      Authority      Expenditures      Transfers       (Computed)
      FY97 IIB              $ 32,431,985      $ 28,333,903   $(4,098,082)     $ 32,431,985
      PY 97 II & III F        69,057,915        73,155,997        4,098,082     69,057,915
      FY 98 IIB               34,457,236        31,788,413    (2,668,823)       34,457,236
      PY 98 II & III F        74,065,989        76,734,812        2,668,823     74,065,989
      PY 98 III EDWAA-D        5,934,518         5,934,518               0       5,934,518
      PY 99 IIB & IIC         39,285,194        34,844,828        (227,429)     35,072,257
      PY 99 IIA & III F       66,381,424        52,265,709         227,429      52,038,280
       Total                $321,614,261     $303,058,180     $          0    $303,058,180



2.   Determine if the JTPA grants awarded to the State were closed on a timely basis in
     accordance with ETA instructions.

     The State submitted the final closeout package on May 31, 2001, which was not within
     the timeframe established by ETA.

3.   Inspect the closeout information reported to ETA, and determine if the information
     appears reasonable based on data previously reported on final FSRs.

     We compared the expenditure information reported on the closeout to that reflected on
     previously submitted final FSRs, and noted only minor changes as follows:




                                            4
                               Expenditures             Expenditures           Increase
         Year and Title      Per Final FSR’s            Per Closeout          (Decrease)
      FY97 IIB                   $28,333,903              $28,333,903                   $0
      PY 97 II & III F            73,155,997               73,155,997                    0
      FY 98 IIB                   31,788,413               31,788,413                    0
      PY 98 II & III F            76,734,812               76,734,812                    0
      PY 98 III EDWAA-D            5,934,518                5,934,518                    0
      PY 99 IIB & IIC             36,165,841               34,844,828         (1,321,013)
      PY 99 IIA & III F           50,944,696               52,265,709            1,321,013
       Total                   $303,058,180              $303,058,180        $           0



     Accordingly, the amounts reported on the closeout package are considered to be
     reasonable based on amounts previously reported on final FSRs.

4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the State’s accounting records.

     We compared the JTPA reported expenditures to expenditures recorded in the State’s
     accounting records, and found that the amounts reported reconciled to the State’s official
     records.

5.   Select a sample of nine final closeout reports submitted by subrecipients to the State,
     and determine if the subrecipients’ final JTPA expenditures were accurately
     recorded in the State’s accounting records.

     We obtained closeout reports submitted to the State by nine subrecipients, and compared
     the final expenditures reflected on the closeout reports to expenditures recorded in the
     State’s accounting records. The final subrecipient expenditures were accurately recorded
     in the State’s accounting records.

6.   Inspect the State’s single audit reports submitted for the two most recent fiscal years
     available, and identify the JTPA expenditures reported on the Schedule of
     Expenditures of Federal Awards (SEFA). Determine if these funds were tested as a
     major program, in accordance with single audit requirements.

     We obtained the State’s single audit reports for SFY 1998 and SFY 1999, and identified
     the total JTPA expenditures reported on the Schedule of Expenditures of Federal Awards,
     $100.3 and $106.9 million, respectively. The JTPA program cluster was listed as a major
     program, and tested as such, for both fiscal years.




                                               5
7.    Determine if the single audit reports identified reportable conditions, material
      weaknesses, report qualifications, or any other audit issues pertaining to JTPA
      grants that remain unresolved.

      The State’s single audit report for SFY 1999 included three findings that were
      subsequently resolved. The findings pertained to (1) cash management, (2) subrecipient
      monitoring, and (3) property management.

8.    Obtain the final cost reports submitted by two subrecipients and determine if the
      amounts reported were supported by the subrecipients’ accounting records.

      We visited two subrecipients, the Private Industry Collaborative and the Workforce
      Services Unlimited, Inc. For each, we compared the final JTPA expenditures reported to
      the State, to expenditures recorded in the subrecipient’s accounting system, and found
      that the amounts reconciled.

9.    Obtain the single audit reports for the two subrecipients and identify the JTPA
      expenditures reported on the Schedule of Expenditures of Federal Awards.
      Determine if the amounts agreed or were reconciled by the single auditors to the
      expenditures recorded in the accounting records.

      We obtained the FY 2000 single audit reports (most recent available) for the two
      subrecipients selected and identified the JTPA expenditures reported on the SEFA. We
      compared JTPA expenditures reported on the SEFA to those recorded in the
      subrecipients’ accounting records, and found that the amounts reconciled.

10.   Inspect the single audit reports submitted for the subrecipients and determine if
      there were reportable conditions, material weaknesses, report qualifications, or any
      other audit issues pertaining to JTPA grants that remain unresolved.

      We obtained the single audit reports for the two subrecipients selected. The reports did
      not identify any unresolved reportable conditions, material weaknesses, report
      qualifications or other audit issues related to the JTPA program.




                                              6
                                                                              EXHIBIT I

                         THE COMPLETE TEXT OF
                      OHIO’S RESPONSE TO THE DRAFT
                     AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Ohio’s response to our agreed-upon
procedures report, issued to them on February 13, 2003.




                                        7
8
